Report No. D-2010-046                 March 3, 2010






     Contracting for Tactical Vehicle Field Maintenance 

                  at Joint Base Balad, Iraq


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACL                           Administrative Change Letter
ACO                           Administrative Contracting Officer
AR                            Army Regulation
DA                            Department of the Army
DCMA                          Defense Contract Management Agency
ESC                           Expeditionary Sustainment Command
JBB                           Joint Base Balad
LOGCAP                        Logistics Civil Augmentation Program
PCO                           Procuring Contracting Officer
SAMS-1                        Standard Army Maintenance System Level 1
USF-I                         U.S. Forces-Iraq
                                 INSPECTOR GENERAL 
 

                                DEPARTMENT OF DEFENSE 
 

                                  400 ARMY NAVY DRIVE 
 

                             ARLINGTON, VIRGINIA 22202-4704 



                                                                             March 3, 2010

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Contracting for Tactical Vehicle Field Maintenance at Joint Base Balad, Iraq
         (Report No. D-201 0-046)

We are providing this report for your information and use. We performed this audit
pursuant to Public Law 110-181, "The National Defense Authorization Act for Fiscal
Year 2008," section 842, "Investigation of Waste, Fraud, and Abuse in Wartime
Contracts and Contracting Processes in Iraq and Afghanistan," January 28, 2008. Section
842 requires the DOD Inspector General to conduct a series of audits of DOD contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan. We considered management comments on a draft of this report
when preparing the fmal report.

The Acting Executive Deputy to the Commanding General, U.S. Anny Materiel
Command, endorsed and forwarded comments from the Commander, U.S. Anny
Sustainment Command. The Commander, Defense Contract Management Agency
International, responded on behalf of the Commander, Defense Contract Management
Agency Iraq. U.S. Forces-Iraq endorsed and forwarded comments from the Assistant
Chief of Staff, Support Operations, 13th Expeditionary Sustainment Command.
Management comments conformed to the requirements of DOD Directive 7650.3;
therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).




                                     Daniel R. Blair 
 

                          Principal Assistant Inspector General 
 

                                      for Auditing 
 

DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
   LOGISTICS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. FORCES – IRAQ
COMMANDER, U.S. ARMY MATERIEL COMMAND
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
Report No. D-2010-046 (Project No. D2009-D000JB-0254.000)                  March 3, 2010

               Results in Brief: Contracting for Tactical
               Vehicle Field Maintenance at Joint Base
               Balad, Iraq
                                                        KBR-09-159-CLSS-4294R3, issued August 5,
What We Did                                             2009, reduced the field maintenance personnel
We assessed whether DOD efficiently and                 level at Joint Base Balad, Iraq, to 75. We
effectively contracted for tactical vehicle field       commend the Army for this action, but believe
maintenance at Joint Base Balad, Iraq.                  they could make further reductions.
Specifically, we evaluated the contract
requirements and statement of work, contractor          What We Recommend
workload and utilization data, and whether there        The Commander, U.S. Army Sustainment
were organic assets available to perform the            Command, should require Logistics Civil
maintenance.                                            Augmentation Program (LOGCAP) procuring
                                                        contracting officers to include in the task order
What We Found                                           statements of work a requirement for the
DOD did not efficiently and effectively contract        contractor to provide tactical vehicle field
for tactical vehicle field maintenance at Joint         maintenance utilization data to all supported
Base Balad, Iraq. According to data provided            Army units.
by KBR, Inc. (KBR), the utilization of
                                                        The Commander, Defense Contract
contractor-provided tactical vehicle field
                                                        Management Agency Iraq, should ensure the
maintenance services was less than the
                                                        contractor provides utilization data in
85 percent required by Army Regulation 750-1.
                                                        accordance with the task order statement of
Specifically, from September 1, 2008, through
                                                        work requirements.
August 31, 2009, the rate ranged from a low of
3.97 percent to a high of 9.65 percent. This            The Commander, 13th Expeditionary
occurred because the task order 159 statement           Sustainment Command (ESC), in coordination
of work did not contain requirements for the            with the LOGCAP Logistics Support Unit and
contractor to report utilization data and               the Defense Contract Management Agency Iraq,
supporting documentation to the Army. In                should review and verify utilization data for
addition, the Army was not conducting adequate          tactical vehicle field maintenance services and
reviews of contractor utilization data provided         determine whether further reductions in
by KBR and taking proper corrective action. As          contractor personnel should be taken in
a result, about $4.6 million of the $5 million in       accordance with Army Regulation 750-1.
costs incurred by DOD were for tactical vehicle
field maintenance services that were not                Management Comments and
required. The Army internal controls were               Our Response
ineffective in monitoring contractor-provided
tactical vehicle field maintenance services.            The U.S. Army Sustainment Command partially
                                                        agreed, and the Defense Contract Management
                                                        Agency and the 13th ESC agreed with the
Management Actions                                      recommendations. Management comments
The Army began reducing contractor field                were responsive.
maintenance personnel levels in August 2009.
Specifically, Administrative Change Letter

                                                    i
Report No. D-2010-046 (Project No. D2009-D000JB-0254.000)        March 3, 2010


Recommendations Table
Management                    Recommendations          No Additional Comments
                              Requiring Comment        Required
Commander, U.S. Army                                   1
Sustainment Command
Commander, Defense Contract                            2

Management Agency Iraq
Commander, 13th                                        3
Expeditionary Sustainment
Command




                                       ii
Table of Contents

Introduction		                                                   1     


       Objective                                                 1     

       Background                                                1     

       Review of Internal Controls                               2


Finding. Tactical Vehicle Field Maintenance Services		           3


       Management Actions                                        7

       Management Comments on the Finding and Our Response       8

       Recommendations, Management Comments, and Our Response   10 


Appendices

       A. Scope and Methodology 	                               13 

            Prior Coverage                                      13 

       B. Verification of Utilization Rates		                   14 


Management Comments

       U.S. Army Sustainment Command                            16 

       Defense Contract Management Agency                       19 

       13th Expeditionary Sustainment Command                   20 

Introduction
Objective
The audit objective was to determine whether DOD was efficiently and effectively
contracting for tactical vehicle field maintenance1 at Joint Base Balad (JBB), Iraq.
Specifically, the audit evaluated the contract requirements and statement of work,
contractor workload and utilization data, and whether there were organic assets available
to perform the maintenance.2 See Appendix A for a discussion of the audit scope and
methodology.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires the DOD Inspector General to conduct a series of
audits of DOD contracts, subcontracts, and task and delivery orders for the logistical
support of coalition forces in Iraq and Afghanistan.

Background
Field maintenance includes preventive maintenance and replacement of defective parts.
The goal of field maintenance is to repair and return equipment to the user. Field
maintenance at JBB includes maintenance on tactical vehicles and engineering equipment
(collectively referred to in this report as tactical vehicle field maintenance). KBR
performs tactical vehicle field maintenance at JBB under the LOGCAP III contract.

Logistics Civil Augmentation Program
LOGCAP provides logistical support to U.S. forces throughout Southwest Asia including
Iraq and Afghanistan. On December 14, 2001, the U.S. Army Operations Support
Command awarded the LOGCAP III contract to KBR as a 10-year, cost-plus-award-fee
contract. Base life support, corps logistics services support, and theater transportation to
Multi-National Force-Iraq and Multi-National Corps-Iraq3 is provided under task order
159 of the contract. Tactical vehicle field maintenance is part of corps logistics services
support. The LOGCAP III task order 159 period of performance was September 1, 2008,
through August 31, 2009.

U.S. Army Sustainment Command
The U.S. Army Sustainment Command in Rock Island, Illinois, is the contracting agent
for LOGCAP. It awards, manages, and executes the LOGCAP contract through a



1
  Field maintenance includes maintenance previously known as organizational and direct support


maintenance. 

2
  DOD organic assets include military mechanics. Although we do not specifically discuss organic assets


in this report, utilization rates of contractor-provided tactical vehicle field maintenance services are driven


by the amount of organic assets available for use. 

3
  Multi-National Force-Iraq and Multi-National Corps-Iraq became U.S. Forces-Iraq on January 1, 2010. 



                                                        1

procuring contracting officer (PCO). The PCO delegated administrative contracting
officer (ACO) duties to the Defense Contract Management Agency (DCMA). The U.S.
Army Sustainment Command also established a logistics support element at each
approved LOGCAP site to coordinate and monitor LOGCAP requirements.

Defense Contract Management Agency
DCMA administers task order 159 and is responsible for contract administration and
quality assurance. As the contract administrator, DCMA assigns an ACO whose
responsibilities include ensuring performance of the terms and conditions of the base
contract and task order, and performance in accordance with the statement of work. The
DCMA ACO for corps logistics services support is located at JBB.

Army Expeditionary Sustainment Commands
The 3rd Expeditionary Sustainment Command (ESC) was located at JBB from June 20,
2008, to August 7, 2009. Its responsibilities included command and control of all
logistics operations in the Iraqi theater. On August 7, 2009, the 3rd ESC transferred
command and control to the 13th ESC. The 3rd and 13th ESC were the supported Army
customers for tactical vehicle field maintenance at JBB under task order 159.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses associated with tactical vehicle field maintenance at JBB. Specifically, the
Army did not have internal controls in place to ensure it obtained and adequately
reviewed contractor utilization data to enable contract modification when warranted.
Implementing Recommendations 1 and 3 should correct the internal control weaknesses
identified in the report. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Army (DA).




                                             2

Finding. Tactical Vehicle Field Maintenance
Services
DOD did not efficiently and effectively contract for tactical vehicle field maintenance
services at JBB, Iraq. According to data provided by KBR, the utilization of those
services was less than the 85 percent required by Army Regulation (AR) 750-1, “Army
Materiel Maintenance Policy,” chapter 4-14, “Manpower Utilization Standards,”
September 20, 2007. Specifically, from September 1, 2008, through August 31, 2009, the
utilization rate ranged from a low of 3.97 percent to a high of 9.65 percent. This occurred
because the LOGCAP task order 159 statement of work did not require the contractor to
provide periodic utilization reports and supporting documentation to the Army. In
addition, the Army was not conducting adequate reviews of contractor utilization data
provided by KBR and taking proper corrective action. As a result, about $4.6 million of
the $5 million in costs incurred by DOD were for tactical vehicle field maintenance
services that were not required. DOD has taken steps to reduce contractor personnel and
increase tactical vehicle field maintenance services utilization rates at JBB; however,
opportunities for additional reductions may exist, which could provide DOD with
additional cost savings.

Utilization Standards
AR 750-1, chapter 4-14, requires Army unit commanders to monitor the utilization of
civilian maintenance personnel and establishes a standard of 85 percent utilization with a
goal of 90 percent. Utilization rates are calculated on the actual direct labor hours
(recorded on DA Form 2407, “Maintenance Request”) divided by the direct labor hours
that were available to perform maintenance.

Contractor Utilization Rates
KBR’s Man-Hour Utilization Reports identified that, during the task order 159 period of
performance (September 1, 2008, through August 31, 2009), the utilization rate of its
JBB tactical vehicle field maintenance services ranged from a low of 3.97 percent (April
2009) to a high of 9.65 percent (September 2008). See Appendix B for additional
information concerning verification of these rates. Table 1 shows the available man-
hours, actual man-hours, and utilization rates reported by KBR.




                                            3

    Table 1. KBR Utilization Rates – Tactical Vehicle Field Maintenance Services
      Month             Available Man-          Actual Man-            Utilization Rate (Actual
                            Hours                  Hours                Man-Hours/Available
                                                                        Man-Hours) Percent
September 2008                    16,200                  1,563                                9.65
October 2008                      16,740                  1,196                                7.15
November 2008                     16,560                  1,072                                6.47
December 2008                     21,216                  1,097                                5.17
January 2009                      21,216                  1,078                                5.08
February 2009                     20,496                  1,390                                6.78
March 2009                        15,360                  1,156                                7.53
April 2009                        21,600                    858                                3.97
May 2009                          22,320                  1,455                                6.52
June 2009                         14,400                  1,233                                8.56
July 2009                         15,252                  1,028                                6.74
August 2009                       12,210                    942                                7.71
      Total                      213,570                 14,068                                6.59

KBR utilization reports indicated that from September 2008 through August 2009, there
were 213,570 available man-hours for tactical vehicle field maintenance services, but that
only 14,068 actual man-hours were needed to perform the maintenance required by the
Army. Based on 14,068 actual man-hours used to perform maintenance, only 16,551
available man-hours would have been needed to achieve the 85 percent utilization rate
required by AR 750-1.4

Reporting Utilization Data
The task order 159 statement of work did not contain requirements for the contractor to
provide utilization reports and supporting documentation to the Army for review.
Instead, the statement of work required the reports to be provided to DCMA and the
Marine Expeditionary Force.5 Table 2 contains the provisions found in Appendix E of
the statement of work concerning utilization reports.




4
 14,068 / .85 = 16,551
5
 KBR provided tactical vehicle field maintenance to the Army and to the Marine Expeditionary Force
under task order 159.


                                                  4

                         Table 2. Task Order 159, Appendix E
Item Title and Requirement Frequency Prepared Submitted To Reference Contractor
  #        of Deliverable               By                            Format
3    Provide Corps Logistics Weekly  Contractor DCMA, Marine
     Services Support                           Expeditionary
     Utilization Reports                        Force
4    Provide Corps Logistics Monthly Contractor DCMA, Marine
     Services Support                           Expeditionary
     Utilization Reports –                      Force
     Monthly Summation

Appendix E also did not specify the format to use to report the utilization rates, the
methodology for computing those utilization rates, and the action DCMA and the Marine
Expeditionary Force should take once they received the reports. As part of its contract
administration responsibilities, DCMA was responsible for ensuring the timely
submission of required reports. However, DCMA personnel at JBB were not aware of
the reporting requirements prior to the start of our audit. DCMA personnel stated that
multiple versions of the appendices were issued and that they were unaware that the final
version of Appendix E included requirements for the submission of utilization reports.
Therefore, the quality checklist used by DCMA to assess the contractor’s adherence to
the contract and task order requirements did not include a step to verify that KBR was
providing the weekly and monthly utilization reports as required by Appendix E.

Contractors performing tactical vehicle field maintenance services at JBB must be
required to provide all customer units with timely utilization data and supporting
documentation. This will ensure that the Army customers can effectively monitor the
utilization rates and comply with AR 750-1. As the contracting officer, the LOGCAP
PCO should ensure the LOGCAP statement of work contains clear and specific
requirements for the contractor to provide tactical vehicle field maintenance utilization
rates and supporting documentation. The statement of work should identify the
methodology for computing the utilization rates and prescribe a specific reporting format.
DCMA, as administrator of the LOGCAP contracts, should ensure that the contractor
provides utilization reports and supporting documentation to the appropriate Army units
at JBB.

Monitoring Utilization Data
Although KBR provided the Army with some utilization data during the task order 159
period of performance, those units did not use that data to take timely corrective action in
response to the low utilization rates. On July 10, 2008, KBR provided the 3rd ESC with
man-hour reports that identified utilization rates for April, May, and June 2008. These
reports grouped tactical vehicle, small arms, communications and electric, and fuel and
electric field maintenance together and identified that the combined utilization rates for
these four areas ranged from 8.10 percent to 9.45 percent. DCMA issued Letter of
Technical Direction KBR 08-159-CLSS-1004 “Maintenance Utilization Data” on
September 2, 2008, to request utilization data that were reported separately by camp and


                                             5

functional area for May, June, and July 2008. KBR responded on September 8, 2008,
and provided DCMA and the 3rd ESC with KBR Man-Hour Utilization Reports that
identified the utilization rates for tactical vehicle field maintenance at JBB ranged from
1.17 percent to 2.49 percent during May, June, and July 2008. KBR provided the 3rd
ESC with monthly Man-Hour Utilization Reports from January 2009 through July 2009.
These reports identified the utilization rate for tactical vehicle field maintenance at JBB
was less than 10 percent.

Personnel from the 3rd ESC stated that they used the KBR utilization reports to better
align supported units to KBR activities; move maintenance work to KBR rather than to
Army maintenance units; and advise the support operations officer as to their ability to
support operations with maintenance capability in emerging locations. Personnel from
the 3rd ESC also stated that the reports allowed maintenance planners to begin work to
redesign the LOGCAP maintenance contract and eliminate excess capability. However,
3rd ESC personnel did not validate the amounts reported on the KBR Man-Hour
Utilization Reports. Specifically, they did not compare actual man-hours from the
utilization reports to DA Forms 2407 that identify the hours KBR actually spent
performing maintenance. In addition, the 3rd ESC did not validate the available man-
hour amounts on the utilization reports. Personnel from the 3rd ESC stated that KBR
would not provide the number of mechanics at each site because it believed the
information was proprietary. Documentation on the number of mechanics and the hours
worked is required to verify the available man-hours.

The 13th ESC took command and control of all logistics operations in the Iraqi theater on
August 7, 2009. Personnel from the 13th ESC reviewed the KBR utilization reports for
the task order 159 period of performance and the methodology used by KBR to compile
the information included in the reports. Based on their review, 13th ESC personnel stated
that KBR may have been underreporting utilization rates for the task order 159 period of
performance. Specifically, the utilization rates may have been as high as 30 percent
rather than the 7 percent reported by KBR. Their concerns were that KBR was using an
incorrect formula to calculate utilization rates and that KBR was including supervisory
and other non-mechanic personnel in its calculation of available man-hours. Personnel
from the 13th ESC also stated that it would take several more months of obtaining and
analyzing the utilization rates to determine the correct utilization rates.

Monitoring the utilization rates for tactical vehicle field maintenance services purchased
under the LOGCAP III contract is a required control that must be in place to ensure DOD
is paying for services it actually needs. The Army should verify utilization rate data
provided by contractors and use that data to make timely adjustments in the level of
contractor-provided tactical vehicle maintenance services. The 13th ESC should
continue to review the utilization data to determine whether additional reductions in
contractor personnel should be taken to achieve the 85 percent utilization required by
AR 750-1. The determination should include provisions for any additional labor needed
for reset of equipment in conjunction with the responsible drawdown of U.S. forces from
Iraq.




                                             6

Costs for Unused Services
The Army’s inadequate monitoring of contractor-provided tactical vehicle maintenance
services at JBB resulted in DOD incurring costs for services that were not required. Task
order 159 required that the DOD pay KBR for available maintenance capacity (available
man-hours) regardless of whether the Army used that capacity. DOD paid KBR about
$5 million for tactical vehicle field maintenance services at JBB during the task order 159
period of performance. We estimate, from the amounts reported by KBR in its Man-
Hour Utilization Reports, that $4.6 million of the $5 million was for maintenance
capacity beyond the available man-hours needed to achieve the 85 percent utilization rate
required by AR 750-1.

Management Actions
In August 2009, the Army began taking action to reduce task order 159 contractor field
maintenance personnel levels. Specifically, Administrative Change Letter (ACL)6 KBR-
09-159-CLSS-4294R3, August 5, 2009, converted the organizational and direct support
maintenance structure to a field maintenance structure and established a JBB field
maintenance personnel level at 75. Personnel from the 3rd ESC stated that the
requirement for 75 personnel was based on multiple factors including the number of units
to be supported, the key locations of consolidated Army equipment, and the footprint and
size of Army units during the drawdown.

We commend the Army for taking this action, but believe the Army can obtain additional
efficiencies with further reductions in contractor-provided tactical vehicle maintenance
services. According to KBR data, there were 144, 112, and 103 maintenance personnel at
JBB, in September 2008, March 2009, and June 2009, respectively. KBR Man-Hour
Utilization Reports identified that utilization rates for tactical vehicle field maintenance at
JBB did not exceed 10 percent for any month during task order 159. If work levels
remain consistent with those reported from September 1, 2008, through August 31, 2009,
it is unlikely that the reduction in personnel in accordance with ACL KBR-09-159-CLSS-
4294R3 will increase utilization rates to the levels required by AR 750-1. We reviewed
the September 2009, KBR Man-Hour Utilization Report and determined it identified a
dramatic decrease from prior months for both available man-hours (3,619) and actual
man-hours (351); however, the utilization rate of 9.7 percent was similar to that reported
by KBR in months prior to the issuance of ACL KBR-09-159-CLSS-4294R3. Therefore,
opportunities for additional reductions of tactical vehicle field maintenance services at
JBB may exist, which may provide additional cost savings to DOD.




6
    A contractual document issued by the ACO that has a cost impact to the contract authorizing the
    contractor to perform new requirements within the original scope of the statement of work.


                                                       7

Management Comments on the Finding and Our
Response
13th Expeditionary Sustainment Command
U.S. Forces-Iraq (USF-I) endorsed and forwarded unclassified comments from the
Assistant Chief of Staff, Support Operations, 13th ESC. The Assistant Chief of Staff
stated that the report title could provide a false sense of scope for the audit because the
audit team utilized data for other services besides wheeled vehicles. He also
recommended that we delete that DOD did not effectively contract for tactical vehicle
field maintenance at JBB because the report did not take into consideration the spike in
maintenance services during the “surge” period. He stated that the contracting of
maintenance capabilities, though not efficient, was effective in ensuring units did not
experience low readiness rates and were able to perform the mission.

Regarding the standards for contractor utilization, the Assistant Chief of Staff stated that
we should consider that the operational readiness of the fleets and ongoing operations
determine the level of repairs needed on equipment, which may fluctuate and directly
impact the utilization rates. He added that, while still below requirements, the utilization
for automotive maintenance increased to 31 percent for October 2009, and with planned
reductions, should continue to increase.

Regarding task order 159 statement of work requirements, the Assistant Chief of Staff
stated that paragraphs 1.9 and 1.10 require the contractor to report performance
outcomes, as appropriate for the supplemental support, as required in the individual
paragraphs. The Assistant Chief of Staff stated that although not written out specifically,
this statement should require the contractor to provide any reports needed by the
government to verify the performance.

USF-I also endorsed and forwarded classified comments from the Assistant Chief of
Staff, Support Operations, 13th ESC. Those comments contain a detailed corrective
action plan that is consistent with the unclassified comments that were provided.
Therefore, they are not included in this report.

Our Response
We disagree that the report title provides a false sense of scope for the audit. The
utilization rates discussed in our report only include tactical vehicle field maintenance
with the exception of the utilization rates for April, May, and June 2008. The April,
May, and June 2008 man-hour reports that KBR provided to the 3rd ESC on July 10,
2008, grouped tactical vehicle, small arms, communications and electric, and fuel and
electric field maintenance together and identified that the combined utilization rates for
these four areas ranged from 8.10 percent to 9.45 percent. We acknowledged that
combined rate in the report.

We disagree with the Assistant Chief of Staff’s position that DOD was effectively
contracting for tactical vehicle field maintenance at JBB. Effective contracting requires



                                              8

monitoring the level of maintenance services purchased, and a reduction of those services
when they are not required. As discussed in the report, Army internal controls were
ineffective in monitoring the level of contractor-provided tactical vehicle field
maintenance services. The surge ended in July 2008, when the last of five U.S. surge
brigades left Iraq. As identified in the report, KBR provided the 3rd ESC with man-hour
reports on July 10, 2008, for April, May, and June 2008. These three man-hour reports
were for months within the “surge” period and grouped tactical vehicle, small arms,
communications and electric, and fuel and electric field maintenance together. The
combined utilization rates for these four areas ranged from 8.10 percent to 9.45 percent.
Utilization rates for tactical vehicle field maintenance services at JBB continued to be
less than the 85 percent required by AR 750-1 through September 2009. While we agree
with the Assistant Chief of Staff’s comment that the level of repairs may fluctuate and
impact utilization rates, the AR 750-1 utilization standard for civilian maintenance
personnel remains constant at 85 percent with a goal of 90 percent. We acknowledge that
the utilization for automotive maintenance has increased to 31 percent for October 2009;
however, that rate is still far below the standard.

We disagree that paragraphs 1.9 and 1.10 of the statement of work contain adequate
requirements for the contractor to provide performance reports to the government.
Paragraph 1.9, Augmentation Support, states that the “contractor shall report performance
outcomes, as appropriate for the supplemental support as required in the individual
paragraphs.” Paragraph 1.10, Operational Control, states that the “contractor shall report
performance outcomes, as required in the individual paragraphs.” However, the task
order 159 statement of work never established requirements for providing utilization
reports to the Army in those individual paragraphs. Appendix E was the only section of
the statement of work that discussed corps logistics services support utilization reports.
However, Appendix E did not contain requirements for the contractor to provide
utilization reports and supporting documentation to the Army for review. As
acknowledged by the Assistant Chief of Staff, the reporting requirements found in
paragraphs 1.9 and 1.10 are not specific. Without additional clarification in the statement
of work, it would be difficult to monitor compliance with these paragraphs as there are no
specifics on what performance outcomes should be reported, when is it appropriate to
report them, and who they should be reported to.




                                            9

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, U.S. Army Sustainment Command,
require Logistics Civil Augmentation Program procuring contracting officers to
include in task order statements of work a requirement for the contractor to
provide supported Army units with weekly and monthly tactical vehicle field
maintenance utilization rates and documentation to support the rates. The
statement of work should also identify the methodology for computing the
utilization rates and prescribe a specific reporting format.

Management Comments
The Acting Executive Deputy to the Commanding General, U.S. Army Materiel
Command, endorsed and forwarded comments from the Commander, U.S. Army
Sustainment Command. The Commander partially agreed stating the U.S. Army
Sustainment Command is coordinating with the 13th ESC to determine if the 13th ESC
can perform the maintenance mission. He stated that if they can’t, the contracting officer
will modify the task order 159 scope of work based on metrics developed by the Deputy
Program Director’s, Iraq Office; the customer; and DCMA. The Commander stated that
the change will reflect the methodology for computing utilization rates and the contractor
will provide the supported Army units with weekly tactical vehicle field maintenance
utilization rates and documentation to support these rates. He stated the target date for
completion is February 28, 2010. The Commander also stated the information will be
provided to LOGCAP IV acquisition personnel for inclusion in the LOGCAP IV task
order.

Our Response
Although the Commander, U.S. Army Sustainment Command, only partially agreed, the
Commander’s planned action of determining whether the 13th ESC is able to perform the
maintenance mission, revising the task order 159 scope of work to include utilization
requirements if contractor-provided tactical vehicle maintenance is still required, and
including utilization requirements in the LOGCAP IV task order, met the intent of the
recommendation. The comments were responsive, and no additional comments are
required.

2. We recommend that the Commander, Defense Contract Management Agency
Iraq, as administrator of the Logistics Civil Augmentation Program contracts,
ensure that the contractor provides utilization reports to the supported Army units
in accordance with task order statement of work requirements.

Management Comments
The Commander, DCMA International, responding for the Commander, DCMA Iraq,
agreed stating that DCMA will amend their quality checklist to assure the contractor is
submitting utilization reports in accordance with the contract requirements. In addition,
DCMA will participate in the post award conference, update the contract receipt and


                                            10 

reviews checklist to assure contract requirements are met, and sample contract receipt
and review checklists used by DCMA operational teams to assure checklist execution.

Our Response
The comments of the Commander, DCMA International are responsive. No further
comments are required.

3. We recommend that the Commander, 13th Expeditionary Sustainment
Command, in coordination with the Logistics Civil Augmentation Program,
Logistics Support Unit, and Defense Contract Management Agency Iraq, review
and verify man-hour utilization data for tactical vehicle field maintenance services
and determine whether further reductions in contractor personnel levels should be
taken in accordance with Army Regulation 750-1, “Army Materiel Maintenance
Policy.” The determination should include provisions for any additional labor
needed for reset of equipment in conjunction with the responsible drawdown of U.S.
forces from Iraq.

Management Comments
USF-I endorsed and forwarded unclassified comments from the Assistant Chief of Staff,
Support Operations, 13th ESC. The Assistant Chief of Staff agreed, stating that as of
December 14, 2009, one 12-person field maintenance support team has been de-scoped, a
reduction has been submitted to the LOGCAP office to decrease 35 personnel at the JBB
field maintenance site, and a reduction has been submitted to the LOGCAP office to
decrease personnel at the Warhorse field maintenance site from 24 to 12. He also stated
that the 13th ESC has outlined and began reduction plans starting in December 2009 that
will reduce field maintenance personnel in Iraq from 827 to 386. The Assistant Chief of
Staff requested that we make this an enduring recommendation by making it applicable to
any ESC, instead of just the 13th ESC. The Assistant Chief of Staff stated that the
13th ESC provided KBR with a presentation that outlined the correct procedure to
account for man-hours and utilization in October 2009 and, in conjunction with DCMA,
updated the contracting officer representative form to better outline monitoring
requirements for contracting officer representatives at field maintenance locations. He
also stated that AR 750-1 provides guidance on how to calculate man-hour utilization,
and if personnel, work order, and man-hour data are input correctly into the Standard
Army Maintenance System – Enhanced, the system will calculate the man-hour
utilization electronically. USF-I also endorsed and forwarded classified comments from
the Assistant Chief of Staff, Support Operations, 13th ESC. Those comments contain a
detailed corrective action plan that is consistent with the unclassified comments that were
provided. Therefore, they are not included in this report.

Our Response
We directed this recommendation to the 13th ESC because they are the current supported
Army customer for tactical vehicle field maintenance at JBB. Review of the utilization
of tactical vehicle field maintenance services and reductions in contractor personnel
levels, if warranted, should be performed by the 13th ESC and not delayed.
Recommendations 1 and 2, when implemented, will ensure that maintenance utilization


                                            11 

rates and supporting documentation are provided to future ESCs located at JBB. We
consider the comments of the Assistant Chief of Staff, Support Operations, 13th ESC
responsive because implementation of the 35 JBB field maintenance personnel reduction
submitted by the 13th ESC to the LOGCAP office meets the intent of our
recommendation. Therefore, no further comments are required.




                                         12 

Appendix A. Scope and Methodology
We conducted this performance audit from July 2009 through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed LOGCAP task order 159, its statement of work, and related appendices.
We reviewed KBR Man-Hour Utilization Reports for JBB tactical vehicle field
maintenance, from September 1, 2008, through August 31, 2009. We judgmentally
selected September 2008, March 2009, and June 2009, and obtained and reviewed DA
Forms 2407 and lists of KBR maintenance personnel with the number of hours
employees were available to perform maintenance. We reviewed KBR Man-Hour
Utilization Reports provided to the 3rd ESC and DCMA. The April, May, and June 2008
man-hour reports that KBR provided to the 3rd ESC on July 10, 2008, contained
combined utilization rates for tactical vehicle, small arms, communications and electric,
and fuel and electric field maintenance. We reviewed AR 750-1 maintenance
requirements, the DCMA delegation memorandum, the DCMA quality checklist, and
Federal Acquisition Regulation Part 42.302, “Contract Administration Functions.” On
August 22, 2009, we attended a performance evaluation board meeting at JBB to
understand the process for rating contractors’ performance on LOGCAP contracts. We
contacted DCMA, LOGCAP, 13th ESC, 3rd ESC, and KBR personnel.

Use of Computer-Processed Data
We used computer-processed data obtained from KBR to perform this audit. KBR
personnel compiled the KBR Man-Hour Utilization Reports using data from the U.S.
Army’s legacy Standard Army Maintenance System Level 1 (SAMS-1). KBR adjusted
the SAMS-1 data to reflect the 12-hour shifts that are typically worked by mechanics at
JBB. We examined September 2008, March 2009, and June 2009 DA Forms 2407 and
lists of KBR maintenance personnel with the number of hours worked to verify the
accuracy of the KBR Man-Hour Utilization Reports. As discussed in Appendix B, we
found discrepancies between the supporting documentation and the amounts reported in
the KBR Man-Hour Utilization Reports. However, our audit results were not affected by
not performing a complete reliability assessment of SAMS-1.

Prior Coverage
We did not identify any reports issued during the last 5 years that addressed contractor-
provided maintenance services at JBB.




                                            13 

Appendix B. Verification of Utilization Rates
We were unable to verify the utilization rates reported by KBR in its Man-Hour
Utilization Reports. We judgmentally selected the September 2008, March 2009, and
June 2009 KBR Man-Hour Utilization Reports for verification. KBR provided
DA Forms 2407, lists of maintenance personnel, and the number of hours those
employees were available to perform maintenance. We compared the DA Forms 2407 to
the actual man-hours reported on the KBR Man-Hour Utilization Reports. In addition,
we compared the lists of KBR maintenance personnel and their available hours to the
available man-hours reported on the KBR Man-Hour Utilization Reports. We determined
that:

       		 The number of actual labor hours identified on the September 2008, March 2009,
           and June 2009 DA Forms 2407 could not be reconciled to the actual man-hours
           reported on the KBR Man-Hour Utilization Reports.

       		 The available man-hours on the September 2008, March 2009, and June 2009,
           KBR Man-Hour Utilization Reports may have been overstated because KBR
           based available man-hours on the assumption that mechanics were available to
           perform maintenance for 12 hours a day. KBR did not adjust the available man-
           hours for training, breaks, or illness, which would have lowered the number of
           available man-hours.

       		 KBR personnel stated that the Man-Hour Utilization Reports only included hours
           available to perform direct tactical vehicle field maintenance services. However,
           our comparison of the available man-hours on the KBR personnel lists to the
           KBR Man-Hour Utilization Reports suggested that available man-hours were
           understated on the September 2008 KBR Man-Hour Utilization Report and
           overstated on the March and June 2009 KBR Man-Hour Utilization Reports.

       		 KBR personnel incorrectly calculated utilization rates for some months during the
           task order 159 period of performance because they were basing utilization on
           Maintenance Allocation Chart hours* rather than actual man-hours.

These discrepancies caused overstatements or understatements of the monthly utilization
rates reported by KBR. Recommendation 1 in this report, if implemented, will reduce
discrepancies by identifying the methodology for computing the utilization rates in the
task order statements of work. The recomputed utilization rates for all three months
remained substantially lower than the 85 percent standard identified in AR 750-1.
Specifically, we calculated the utilization rates of JBB tactical vehicle field maintenance
services as .63 percent, 6.69 percent, and 10.13 percent for September 2008, March 2009,
and June 2009, respectively. We did not attempt to verify JBB tactical vehicle field



*
    Maintenance Allocation Chart hours establish the average time required to perform a particular repair.


                                                      14 

maintenance utilization rates for the other months in the task order 159 period of
performance, because our review of the September 2008, March 2009, and June 2009,
KBR Man-Hour Utilization Reports indicated that utilization rates were lower than the
85 percent required by AR 750-1.




                                          15 

U.S. Army Sustainment Command Comments
 





                                      DEPARTMENT OF THE ARMY
                                 HEADQUARTERS, U..s. A.IUIIY MATERIEL COMMAND
                                            U01 CIW'EK ROAD
                                        fORT BELVOIR, VA Z2Oeo.S527


                                                                                2 Z JAN 2m1l
      AMCIR




      SUBJECT: Command Reply to (nspector General, Department of Defense, Draft Report:
      Contracting for Wheeled Vehicle Maintenance at Joint Base Balad, Iraq, dated 07, December
      2009, (02009-DOOOJB-0254) (0 10 14)


      I . The Anny Materiel Command has reviewed subject report and endorses the enclosed ASC's
      Command Repl y to the Draft Report.

      2. The            of contact




      Encl                                        ~1?'~
                                                     Acting Executive Deputy
                                                       to the Commanding General




                                                                16
                                    UNCLASSIFIED
                                 DEPARTIENT OF THII!: ~y
                         MIotIiDQUMTBta,U"'_MT-..r~
                                     1 ~. III.NCIMIIfW.
                                    ItOCK......",1.. e1 .......



AMSAS-CG                                                                  O[C I 7 2IIll

MEMORANDUM FOR Inspector General. [)epIrtmen ofDefcmc. 400 Amrj Navy Drive.
Arlingtan. VA 22202-4704

SUBJECT: ConttaCla,g i>r Whcckd Vehicle Maintenance It Jon. Base Salad, lIWj (Project No.
D2009-0000ffi-02.54.000)



1. We rcvicwc:d the draft report. Our oomrncnll ue enclosed.

2. Tho



                          Click to add JPEG file
"""I




                                   11Nr.1    A!c;"I~lFn




                                                            17
                        ag, ASC C_'''''' -.ply
                           DoDIIJ tn.n bporl.
                  'l'a ClUcal Vuiol . Field ....iateuaACle at Joiat   aa ••
                               "l~, IlI:aq


FiQd!ng : DOC did not efficientl y and effectively contract for
tactical vehicle field maintenance at Joint Base salad, Iraq.
Accordi ng to data provided by KBR, Inc. the utilization of
contractor - provided t actica l vehicle fie l d maintenance services
was less than the 85 percent required by Ar my Requlation 750 - 1.
~datloa         1:     We recommend that t he Co~ander, U. S. Army
Sustainment Comma nd, require Logistics Ci vi l Augmentation Program
procuring contracting offi cers to include in task order
statements of work a requirement for t he contractor to provi de
s upported Army units with weekly and monthly tactical veh icle
field maintenance utilization rates and documentation to s upport
the rates. The statement of work should a l so identify the
methodology for computing the utili zation rates and prescribe a
specific repor ti ng f ormat.
C~         co...at.. Partially concur. We are coordinating with t he
                    Click to add JPEG file
13 ESC to dete rmine if they can perform this mission. If they
can't, the Contracting Offi cer will modify the Task Order 159
Scope of Work based on metri cs developed by the Deputy Program
Director ' s, Iraq office , the customer and DC~~. The change will
reflect the methodology for computing uti lization rates . The
cont r actor wil l provide the supported Army units with weekly
tactical vehi cle f i eld maintenance uti li zation rates and
documentation to support these ra tes. Tarqet date for completion
of t h i s is 28 Feb 2010.
This information will also be provided to LOGCA P IV acquisition
personne l for inclu sion in the LOGCAP IV Tas k Order .




                                   1
Defense Contract Management Agency Comments






                                             DEFENSE CON TRACT MANAGEMENT AG ENC Y
                                        DEFENSE CONTRACT MANAG EM ENT AG ENCY INTERNATIONAL
                                                                   6359 Walker Lane Sulte 220
                                                                 AleUtr.dlia Virginia 223T{).;J259



 :FER TO
           DCM AI-C


           MEM ORANDUM FOR DE PART M ENT OF DEFENSE. OFFIC E OF INSPECTOR GENERA L

           S UB1ECT: Dc[Xtrtmcnt o f Defense ( DO D) Project No D2009-DOOOlB-02S4 .000,
           Contrac ting for Tacllca! Vdllc:lC f ll.:!d MamtcnJncc a1 Joint Base Sa lad OBO}, Iraq


           Defense Conaat! Mnnagernclll Ag.ency IntcrTllltlonal ( DC MAI) hll ~ rcvl cw.:d the s ubject proposed report and provided
           a stutcmcnt o f actio ns ma nl gcmcnt w ill take II) address the DOD IG findi ngs ;ln ti rocomll1Cndali ulIs made !O the
           Commander. DC MA. Jraq.

           n O I) IG Fi nrling: DOD d id not e ffi ciently a nd effectively COntnlCI for t.'lcticnl vehicle fiel d 1n:limcnancc at Joint
           B:c;c B:l lad. Iraq. T he miJiUllion ofconfr;lctor-providcd lactkal vc hicle iield maintenance services was less than the
           85 percent required by Anny Regubtion 750-1. Specifically, from J Septcmbt!r 2008 throug. h J 1 ,\ug usI 2009. lhc rate
           ra nged from a low 00.97 percent 10 tl high o f 9.65 percent. This octurred because the LOGCA P T<lSK Onlcr 159
           s tatement of work (SOW) did n()t com;un requirements for the contractor to rcpon utilization d ata and supporting
           d("lcumcnts 10 the Anny and a ~ a fCS\l lL tht' Anny was n Ol conducling UdcqU31C re views of contracto r ut"iliz;uion data .

           DOL> IG Rccommt'n datio n: The COlllma nder. OC M A. lraq. should emure the contrJt:tor pro\'iJc<; util izatio n Jala in
                                                 Click to add JPEG file
           acconl:lncc wilh the task o rder Sllllcmo.: l11 of work rcqUlrcmcnL

           DCMA RC.'Illome: DCMA conCUN w1th rccommendallon

           DC MA Stal('nwnt of Action : DCMA wd l a<;sure the follow lI1£ lllCasurCS art' "1ke!);

                             Participatio n in POSt Award Conference
                             Update ("omract R('ccilU l lld Reviews (CR H) ('heeld ;:;t for contracts delegated to DCM.~ 10 3 ~sur<:
                             the SOW and Contr;r<.:l Dat(l Requirements Lisl (CORL ) thai requirc m:mdatory contrne!Of
                             deliverables cn~uring tcnR" and eondition~ o r the eontrnc! are Strictly adhered 10 during contrJC!
                             pcrfonnance.
                             DCI\·IA Quality c hed;J isl has been amended [0 ineorporme all clement to assure the contrJctor is
                             '{ubmilling lltiliZ3tion rel)Ons in acco rdance wi th the colltr<let requirements.
                             l)('MA Ma nagers Internal Control Program RC\'icws will <;(Imple C'R R checklists u~d by DCMA
                             0pciJ1ional tcarns to assure Ihey are e;'\ccl1ting to ('HR checklist

           If you have questions. please coniucl' • • • • • • • • OCMA I·OC. at • • • • • or by ema il :
              •        • 'ii. dcma.miL




                                                         fA R QI T !C1 • I   l!l)~_   9 >1 1 Y
13th Expeditionary Sustainment Command Comments






                    DODIG DRAFT REPORT - DATED December 7,2009
        "Contracting for Tactical Vehicle Field Maintenance at Joint Base Balad, Iraq"
                           (Project No. D2009-DOOOJB-02S4.000)


                       USF-1/13th Expeditionary Su stainment Command

                              COMMENTS TO THE DRAFT REPORT


      RECOMMENDATION 3. (page 8. DODIG Draftl
      DODIG recommends that the Commander, 13th Expeditionary Sustainment Command,
      in coordination with the Logistics Civil Augmentation Program, Logistics Support Unit,
      and Defense Contract Management Agency Iraq, review and verify man hour utilization
      data for tactical vehicle field maintenance selVices and determine whether further
      reductions in contractor personnel levels should be taken in accordance with Army
      Regulation 750-1, "Army Materiel Maintenance Policy." The determination should
      include provisions for any additional labor needed for reset of eqUipment in conjunction
      with the responsibl e drawdown of U.S. forces from Iraq.

      13·h ESC RESPONSE: 13 th ESC concurs with information provided in this report.
      Additional comments and on-going actions are listed below.

      Summary of current Actions as of 14 December 09:
          De-scope of 1 x Field Maintenance Support Team (1 2-pax)
          Reduction of 35-pax from Joint Base Salad field maintenance site ·(submitted to
          LOGCAP office) decreasing from 80 to 45 personnel.
          Reduction of 12-pax from Warhorse field maintenance site (submitted to
          LOGCAP office) reducing from 24 to 12 personnel.

      Planned de-scopes: See attachment A (13ES C Optimization of Contracted
      Maintenance.pptx)

                            GENERAL COMMENTS ON THE REPORT

      1. (U) Page 1. Under paragraph What We Did. the report states that "We assessed
      whether DOD efficiently and effectively contracted for tactical vehicle field
      maintenance at Joint Sase Salad, Iraq", however, the team researched and utilized
      the data (or lack thereof) for other services in addition to wheel vehicles. The team also
      included small arms, communications and electronics, and fuel and electric areas in
      their research. The title Tactical Vehicle Field Maintenance could provide a false sense
      of scope of the research.

      2. (U) Page 1. Under paragraph What We Found. the report states that "DOD did not
      effiCiently and effectively contract for tactical vehicle field maintenance at Joint
      Sase Salad." Recommend delete ~effectively" for the report does not take into
               that contracting of the maintenance services saw a spike during the
      H
"surge time frame. The contracting ·of maintenance capabilities, though not efficient,
was effective in ensuring units did not experience low readiness rates and being able to
perform mission.

3. (U) Page 1. Under paragraph What We Recommend, the report states "The
                th
Commander, 13 Expeditionary Sustainment Command... Recommend delete of
   th
13 as this should be generic statement and applicable to any ESC as an enduring
recommendation.

4. (U) Page 3. Under paragraph Utilization Standards, it should be taken into
consideration that the operational readiness of the fleets and ongoing operations will
detennine the leve! or repairs needed on equipment, which may fluctuate and directly
impact the utilization rates.

5. (U) Page I, What We Recommend states "The Commander, 13th Expeditionary
Sustainment Command, in coordination with the LOGCAP Logistics Support Unit
and the Defense Contract Management Agency Iraq, should review and verify
utilization data for tactical vehicle field maintenance services and determine
whether further reductions in contractor personnel should be taken in
accordance with Army Regulation 750-1."

COMMENT - The 13~ ESC has outlined and began reduction plans starting in
                           Click to add JPEG file
December 2009 that will reduce the Field Maintenance personnel strength from 827 to
386 by end of Phase IV.

6. Page 3, Contractor Utilization Rates. Table 1. Lists Utilization rates from Sep 08­
Aug 09. The average utilization during that period was 6.76%.

COMMENT - While still below requirements, the utilization for Automotive Maintenance
has increased to 31% as reported for Oct 2009. With planned reductions, the utilization
should continue to increase.

7. (U ) Page 4, Reporting Utilization Data states that "The task order 159 statement of
work did not contain requirements for the contractor to provide utilization reports
and supporting documentation to the Army for review. JJ

Paragraph 1.9 Augmentation Support and Paragraph 1.10 Operational Control of the
Task Order SOW states "The contractor shall report performance outcomes, as
appropriate for the supplemental support as required in the individual
paragraphs. II

COMMENT - Although not written out specifically, this statement should require the
contractor to provide any reports needed by the government to verify the perrormance.




                                                                                          2
8. (U) Page 5, Reporting Utilization Data states that "Appendix E also did not specify
the format to use to report the utilization rates, the methodology for computing
those utilization rates, and the action DCMA and the Marine Expeditionary Force
should take once the reports were received. JJ

  (U) Page 6 Monitoring Utilization Data states "Their concerns (13 ESC) were that
KBR was using an incorrect formula to calculate utilization rates and that KBR
was including supetvisory and other non~mechan;c personnel in its calculation of
available man-hours.
COMMENT· 13 ESC Materiel Readiness Branch provided KBR with a presentation that
outlines the correct procedure to account for Man-hours and Utilization in Oct 2009. The
Materiel Readiness Branch ICW DCMA updated the COR Audit Form to better outline
monitoring requirements for COR's at Field Maintenance Locations.

AR 750-1 provides guidance on how to calculate man-hour utilization. If personnel, work
order, and man-hour data are input correctly into the SAMS-E computers, the system
will calculate the man-hour utilization electronically.




                           Click to add JPEG file
    .C/v12.=---­
APPROVED BY:                                          PREPARED BY:
GUSTW. PAGONIS                                        EDGAR A. CERDA
COL, LG                                               MAJ,OD
ACofS, spa                                            MRB Chief, spa
u.s. ARMY                                             U.S. ARMY
 
